Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 THE RYAN WHITE CARE ACT

    Implementation of the Spousal
      Notification Requirement




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1999
                      OEI-05-98-00391
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region V prepared this report under the direction of William Moran, Regional Inspector
General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

William Moran, Regional Inspector General Elise Stein, Program Specialist
Nora Leibowitz, Project Leader




       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                     SUMMARY


PURPOSE

          To identify whether States are implementing their approved plans to ensure a good faith
          effort is made to notify spouses of persons infected with HIV of their possible exposure.

BACKGROUND

          Section 8 of the Ryan White Comprehensive AIDS Resources Emergency (CARE) Act
          requires that any State receiving Ryan White Title II funding take administrative or
          legislative action to require a good faith effort be made to notify current and former
          spouses of known HIV-infected patients of possible exposure. A State that does not
          comply with this requirement will lose its Title II funding. Title II provides funds to States
          for health care and support services for those with HIV and AIDS. The total Title II
          appropriation for FY 1999 was over $709 million.

          The requirement for States to make a “good faith effort” does not mandate that all
          spouses of HIV-positive individuals be notified, but does require States to establish
          procedures which facilitate faithful attempts to notify all impacted spouses.

          States have administered HIV and STD partner notification programs which included
          spouses for many years. The activities to which States certified were both ongoing efforts
          and additions to their Partner Counseling and Referral Services programs that were
          designed to specifically address spousal notification requirements.

          Each State provided the Centers for Disease Control and Prevention (CDC) with
          information on existing or planned legislative and/or administrative actions in order to
          comply with Section 8 requirements. The CDC approved the certifications of compliance
          submitted by all 50 States, the District of Columbia and U.S. territories. We reviewed all
          51 State certifications in order to gain a firm understanding of the details of this program.
          However, for the purposes of this study, we assumed that CDC’s approval of
          certifications indicates State activities constitute a good faith effort as required.

          We focused on determining whether States were implementing the programs that CDC
          had certified. To accomplish this goal, we collected documentation and conducted site
          visits with State public health staff and HIV test site counselors in six States with high
          prevalence of HIV cases. Additionally, we interviewed and collected documentation from
          State public health staff in five randomly selected States.

          This evaluation was conducted at the request of Congressman Thomas Coburn.

Ryan White CARE Act: Spousal Notification           1                                      OEI-05-98-00391
FINDINGS

The 11 Sampled States Have Taken Action on Their Approved Plans

          All sampled States have followed up on certified activities, including revising counseling
          guidelines and contract language, updating training materials, retraining counselors and
          informing providers about changes due to Section 8 of the Ryan White CARE Act. Some
          States have initiated additional notification activities not contained in their original
          certifications.

States Are Responding to Common Barriers

          Efforts to notify spouses and partners of persons with HIV are hampered by legislative
          and administrative barriers, by the structure of State and local governments and by
          physician, counselor and patient concerns. States have responded to barriers by offering
          freedom from liability for providers who notify, and by organizing elicitation and
          notification programs to fit into existing governmental and health care structures. Some
          States offer training for physicians and counselors, and make efforts to explain the process
          and benefits of notification to persons newly diagnosed with HIV.

Several States Are Undertaking Promising Notification Efforts

          While all sampled States have done what they certified to, several States have taken
          actions which appear particularly useful or successful. Several States have made efforts
          regarding provider and counselor training, data utilization and notification that balance
          informing partners and maintaining confidentiality for index cases.

Data Collection Is Limited and Uneven

          Five sampled States collect data on partner notification. However, none of the 11
          sampled States collects data specifically on the number of spouses who have been notified
          of their HIV exposure risk. The six others currently do not collect notification data as
          part of their programmatic efforts. Three of these States are currently developing or
          piloting data systems. In at least one State which does not collect data at the statewide
          level, some counties collect local data on notification.


RECOMMENDATIONS

          While States have taken action on their certifications, their efforts do not completely
          ensure that vulnerable people are always made aware of their possible exposure to HIV.
          Based on our findings, additional efforts need to be undertaken to ensure maximum
          notification while ensuring confidentiality and meeting patients’ needs.


Ryan White CARE Act: Spousal Notification          2                                      OEI-05-98-00391
Continue to Facilitate Understanding of Notification Efforts Through Publicity,
Education and Training

          The CDC currently engages in public education efforts on a number of HIV-related issues.
          To increase knowledge for all parties, we recommend that CDC augment its current
          efforts by facilitating targeted education campaigns and provider trainings.

          Establish and continue efforts to publicize notification goals, efforts and benefits.
          Publicizing information about notification and other Partner Counseling and Referral
          Services activities can increase awareness and broaden acceptance of the purpose and
          benefits of informing spouses and partners about their HIV risk. We recommend that
          CDC establish targeted public affairs efforts for providers, HIV advocacy groups and
          persons at high risk of contracting HIV. Spouse and partner notification should be
          addressed at senior levels in the department, and information about State efforts should be
          conveyed to interested parties in a manner that increases the issue’s acceptability.

          Facilitate local cooperation and collaboration. We recommend that CDC facilitate
          local level collaboration between State and local public health departments and private
          providers. Over 80 percent of HIV tests are conducted in the private sector. Training,
          technical assistance and other written and oral guidance can help public health
          departments and private providers understand the process of spouse and partner
          notification, their roles in the process and the benefits of partner notification.

Share Good Practices, Replicable Efforts

          We recommend that CDC facilitate the sharing of information about successful State
          notification practices, including training, data collection and other efforts which enhance
          spouse and partner notification outcomes. The CDC should sponsor multi-State meetings
          on notification issues and efforts, and encourage the spread of promising practices.




Ryan White CARE Act: Spousal Notification          3                                     OEI-05-98-00391
Encourage the Establishment of Data Collection Systems

          We recommend that CDC encourage the development and use of data collection systems
          to monitor State spouse and partner elicitation and notification efforts. Information
          collected provides a snapshot of efforts that are working and those that may need more
          attention. The agency should facilitate the development of pilot and full-scale data
          collection programs, identifying successful State data collection efforts and facilitating
          information sharing between States on notification data collection issues. Data on
          elicitation and notification can be aggregate information which does not require States to
          collect and store identifying information on partners or index cases. Due to the substantial
          costs involved in data collection, the above recommendation is contingent on the
          availability of funding.




AGENCY COMMENTS

          We would like to thank the Centers for Disease Control and Prevention and the Health
          Resources and Services Administration for commenting on the draft of this report.

          The Centers for Disease Control and Prevention suggested some additions and a change to
          the first recommendation. Based on their comments, some changes and clarifications were
          made to this report. In particular, at their suggestion we have attached their guidance to
          State public health officials regarding certification of compliance with the spousal
          notification requirement. These guidelines provide examples of principles and practices
          that constitute a “good faith effort” for certification. The full text of their comments is
          attached.

          The Health Resources and Services Administration concurred with our recommendations
          and had no additional comments.




Ryan White CARE Act: Spousal Notification          4                                      OEI-05-98-00391
                          TABLE                      OF             CONTENTS


                                                                                                                         PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      States Have Taken Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          States Are Responding to Common Barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Several States Are Undertaking Promising Notification Efforts . . . . . . . . . . . . . . . . . 17


          Data Collection Is Limited and Uneven . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


APPENDICES

    A: Centers for Disease Control and Prevention Comments . . . . . . . . . . . . . . . . . . . . 27


          B: Centers for Disease Control and Prevention Guidance to States . . . . . . . . . . . . . . 29


          C: Spouse and Partner Notification Activities: State Level Data . . . . . . . . . . . . . . . . . 31


                    Table 1: State Spousal Notification Efforts - Actions Described 

                             in Certifications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


                    Table 2: Barriers to Spousal Notification and State Solutions . . . . . . . . . . . . . 35


                    Table 3: Data Collection in the 11 Sampled States . . . . . . . . . . . . . . . . . . . . . 38





Ryan White CARE Act: Spousal Notification                       5                                                  OEI-05-98-00391
                                       INTRODUCTION


PURPOSE

          To identify whether States are implementing their approved plans to ensure a good faith
          effort is made to notify spouses of persons infected with HIV of their possible exposure.


BACKGROUND

The Ryan White CARE Act

          In response to the HIV epidemic and its impact on individuals, families, communities,

          cities and States, Congress passed the Ryan White Comprehensive AIDS Resources

          Emergency (CARE) Act in 1990. Ryan White programs provide health care and support

          services to persons with HIV and AIDS who would otherwise not have access to care. 


          The Ryan White Act, which was re-authorized in 1996 through the year 2000, has four

          titles: 


          C         Title I: HIV emergency relief grant program for cities 

          C         Title II: HIV care grants to States 

          C         Title III: Early intervention services 

          C         Title IV: Pediatric care and reports and evaluations 


          Through its HIV/AIDS Bureau, the Health Resources and Services Administration

          (HRSA) administers the Ryan White program. The HIV/AIDS Bureau conducts

          programs to benefit low-income, uninsured and under-insured individuals and families

          affected by HIV/AIDS. Total appropriations for HRSA-funded CARE Act programs is

          $1.41 billion for fiscal year 1999.


Section 8 of the Ryan White CARE Act

          Section 8 of the Ryan White reauthorization requires that any State receiving Ryan White
          Title II funding take administrative or legislative action to require a good faith effort be
          made to notify current and former spouses of known HIV-infected patients of possible
          exposure. A State that does not comply with Section 8 of the 1996 reauthorization of the
          Ryan White Act will lose its Title II funding. The requirement for States to make a “good
          faith effort” does not mandate that all spouses of HIV-positive individuals be notified, but
          does require States to establish procedures which facilitate faithful attempts to notify all
          impacted spouses.

Ryan White CARE Act: Spousal Notification             6                                   OEI-05-98-00391
          While HRSA-administered Ryan White Title II funding is at risk for States which fail to
          comply with Section 8 of the Act, spousal notification falls under the purview of the
          Centers for Disease Control and Prevention (CDC). The CDC directly funds HIV/AIDS
          prevention activities through the agency’s HIV Prevention Projects. These programs
          assist public health departments (1) to reduce or prevent the transmission of HIV by
          reducing or preventing behaviors or practices that place persons at risk for HIV infection;
          and (2) to reduce associated morbidity and mortality of HIV-infected persons by
          increasing access to early medical intervention. This funding is the primary source of HIV
          prevention funding for all State health departments and six city health departments.

          Officials at HRSA have noted that States that fail to comply with Section 8 requirements
          will lose their Title II funding, despite the fact that CDC administers partner notification
          and other HIV prevention activities. Just as different Federal agencies administer Ryan
          White and HIV prevention programs, the agency administering Ryan White Title II funds
          at the State level is often different from the one conducting HIV and AIDS partner
          notification. Thus, the State agency responsible for funding health care and social services
          for persons with HIV may be forced to respond to a loss of funds without having any
          authority to fix the problem which caused the loss. A State that does not make a good
          faith effort to notify spouses and partners loses funds earmarked for HIV health and
          ancillary care services not money directed for prevention.

CDC Approval Process

          In December 1996, CDC asked States and Territories to certify that they were taking
          legislative and/or administrative steps to ensure compliance with Section 8 of the Ryan
          White CARE Act (P.L. 104-146). The “CDC Guidance to State Public Health Officials
          Regarding Certifications of Compliance With Public Law 104-146" describing what
          constitutes a good faith effort accompanied the CDC request for State certification
          information. This document is included in Appendix B of this report. All States responded
          in January and February 1997. Each State provided CDC with information on existing or
          planned legislative and/or administrative actions. The CDC reviewed the documents and
          approved those found to be acceptable. The CDC worked with States whose
          certifications did not appear to meet compliance standards in order to develop compliance
          plans which would ensure a good faith effort. In letters sent on February 13, 1997, CDC
          acknowledged State certifications.

          In our analysis of the steps States have taken to fulfill promises made in the certifications,
          we assumed that CDC’s approval of certifications indicated State activities constituted a
          good faith effort as required.

All States: Certifications

          The CDC has approved the certifications of compliance with P.L. 104-146 submitted by
          all 50 States, the District of Columbia, and U.S. Territories. The certifications indicated


Ryan White CARE Act: Spousal Notification            7                                      OEI-05-98-00391
          what laws and policies each State currently had in place or intended to implement.
          Certifications cited existing State law, recently passed legislation and planned legislative
          changes as well as current policy, planned policy changes and current or planned attempts
          to publicize laws and policies.

          Thirty State certifications made reference to current law or planned legislation which
          addressed spousal notification requirements. Forty-six States described policies and
          guidelines which were in place or which the State planned to implement. In addition, 20
          States specifically described language regarding spousal notification which was already
          required for contracts and memoranda of understanding or which they intended to insert
          into such agreements.

Partner Notification in Context

          States have administered Partner Counseling and Referral Services (PCRS) programs for
          many years. While these efforts include notification of spouses and other partners, they
          are not limited to such activities. The activities to which States certified were both
          ongoing efforts and additions to their PCRS programs which were designed to specifically
          address spousal notification requirements.1

          In December 1998, CDC’s National Center for HIV, STD and TB Prevention published a
          revised “HIV Partner Counseling and Referral Services” guidance document. The
          guidance provides information on availability of PCRS, advises programs developing a
          PCRS plan gives direction on locating and notifying partners, collecting and analyzing
          PCRS data and ensuring the quality of PCRS. While previous to this guidance States had
          their own guidelines and program rules for spouse and partner notification, many States
          run their programs and update their procedures using CDC’s ongoing guidance.

          Health departments and other organizations which provide PCRS to their clients offer
          services based on a number of core PCRS principles. As CDC indicates in their 1998
          guidance document, PCRS must be voluntary, confidential and culturally sensitive. A
          PCRS program is one component of a comprehensive HIV prevention system, and is
          based on client-centered counseling which makes use of multiple support services and
          diverse referral options.

          While this report focuses on two aspects of PCRS (elicitation of partner names and
          notification of those partners of their possible exposure to HIV), these elements are
          understood to be part of a comprehensive PCRS program. As CDC stresses in their
          guidance, counseling is the key to successful efforts to reduce HIV transmission and
          improve the health of currently infected persons.


          1
          Also see Appendix B for examples of “good faith effort” principles and practices that CDC provided to
State public health officials.


Ryan White CARE Act: Spousal Notification               8                                           OEI-05-98-00391
          Eliciting names of spouses, sex partners and intravenous drug needle-sharing partners
          often takes place during post-test counseling, or at a session held shortly after diagnosis.
          Notification is generally, though not exclusively, carried out by State or local public health
          employees. It is always conducted in person and never involves identification of the index
          case to notified partners or other individuals. Elicitation may be performed by the same
          person who notifies spouses or partners, but this is not always the case.

Defining Index Cases and Partners

          In the elicitation and notification process that is started when an individual tests positive
          for HIV, State public health staff often refer to the person tested as an “index case.” This
          designation helps define the individual as someone who has tested positive for HIV and
          who is asked to name spouses and partners at the start of the notification process.

          Many States’ certifications do not specifically define partners, though many define
          “spouse” by referring to language used in Section 8 of the Ryan White CARE Act. States
          which do explicitly define partners in their certifications include spouses, non-spouse sex
          partners and individuals with whom persons share intravenous drugs and needles.

Notification of Spouses

          None of the States in our sample or in the larger group of States and Territories which
          certified to the CDC runs a notification program which only notifies spouses about
          possible HIV exposure, but does not notify other sex or needle-sharing partners. Even
          States which made legislative and/or policy changes in order to comply with Section 8 of
          the Ryan White CARE Act already ran previously existing partner notification programs.
          To ensure compliance, States made changes to law and/or policy with regard to spousal
          notification specifically. Several States added language to their partner notification
          policies to specifically address Section 8 requirements.

          This evaluation was conducted at the request of Congressman Thomas Coburn.




Ryan White CARE Act: Spousal Notification           9                                      OEI-05-98-00391
METHODOLOGY

          We examined approved certifications from the 50 States and the District of Columbia. We
          reviewed the administrative and legislative actions each State had taken or planned to take
          to ensure compliance with Section 8 of the Ryan White CARE Act. We conducted on-site
          interviews with six higher prevalence HIV States (California, the District of Columbia,
          Florida, Illinois, New Jersey and New York). The site visits included discussions with
          State staff responsible for spouse and partner notification activities and with individuals
          directly involved in HIV counseling and testing at the local level. In addition, we
          conducted telephone interviews with State staff responsible for spouse and partner
          notification activities in five randomly selected States (Kansas, Missouri, North Carolina,
          Washington and West Virginia).

          In each of the 11 States where we conducted on-site or telephone interviews, we
          discussed the State’s current spouse and partner notification policies and laws. We also
          asked each State about the planned actions in their certifications to identify whether the
          State had taken action on these items. We collected documents regarding States’
          implementation of spousal notification programs.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Ryan White CARE Act: Spousal Notification          10                                     OEI-05-98-00391
                                            FINDINGS


The 11 sampled States have taken action on their approved
plans
All 11 States certified to planned activities

          Each State certification describes existing and planned administrative policies.2 Six of the
          11 States cite laws that specifically refer to the notification of spouses of persons
          diagnosed with HIV. Certifications in six States outline where language regarding spousal
          notification was inserted into contracts and memoranda of understanding; seven States’
          certifications describe current or planned attempts to publicize notification rules and
          policies.

          All sampled States have followed up on planned activities, including revising counseling
          and testing guidelines and contract language, updating training materials, retraining
          counselors and informing public and private providers about changes due to Section 8 of
          the Ryan White CARE Act.

Eliciting spouse and partner names from index cases

          State or local health department employees are specifically employed to elicit names in
          seven sampled States. In these States, staff eliciting spouse and partner names may either
          be stationed at the counseling site or may contact the original patient using information
          provided by the physician or counselor. The latter is generally employed when a private
          provider has conducted an HIV test for a patient. Although elicitation is often performed
          by State or local public health staff in these seven States, it is the sole responsibility of the
          public health department in only one of them.

          In four States, names are primarily elicited by physicians and HIV counselors at the time
          an individual’s diagnosis is discussed. An HIV counselor may be employed by the State,
          local health department or a private agency.




          2
          For further information on the activities States describe in their applications, see Table 1: “State Spousal
Notification Efforts - Actions Described in Certifications” in Appendix C.

Ryan White CARE Act: Spousal Notification                 11                                            OEI-05-98-00391
Notification duties and State partner notification staff

          State or local health department staff have primary responsibility for notifying spouses and
          partners in all 11 sampled States. In over half the sampled States, physicians and HIV
          counseling staff may notify spouses and partners, although they do not usually have
          primary responsibility for this activity. In one State, the attending physician is responsible
          for ensuring that notification occurs, whether or not he performs this activity. In another
          State, providers are encouraged but not required to elicit names and notify spouses. This
          State’s certification notes that State law frees them from liability whether they choose to
          notify or not.

The role of counseling in the elicitation and notification process

          Respondents at the State and local level indicated that good counseling is the key to
          eliciting partner names and successfully educating partners about their risk and steps they
          can take whether or not they test positive for HIV. Counseling activities for both the
          HIV-positive individual and his or her partners are extremely important. Thorough
          counseling outlines the client’s risk and facilitates the development of strategies to prevent
          further transmission of HIV. As CDC indicates, counseling takes substantial time, effort,
          training and resources. These investments are worthwhile, because clients who
          understands their risks and the possible danger they pose to others are more likely to fully
          participate in partner notification activities. State respondents indicated that counseling
          sites with more developed programs and better trained staff are more successful at
          eliciting partner names from their HIV-positive clients.

Spouses and notification without patient consent

          Due to confidentiality laws, five States in our sample require patient consent for a provider
          to notify a spouse. In one State, a physician may personally notify a spouse only with
          patient consent, but can facilitate notification without consent. If a physician knows the
          identity of his HIV-positive patient’s spouse, that physician is required to give the
          spouse’s name to State staff responsible for notification. For non-spouse partners, patient
          cooperation with elicitation and notification is required.

          While confidentiality laws restrict some State notification efforts, 8 of the 11 sampled
          States allow providers to notify spouses without the index case’s permission if the
          provider knows the spouse’s identity. Public health staff or the notifying physician are
          generally required to contact the index case and try to gain their consent before
          proceeding with notification.




Ryan White CARE Act: Spousal Notification          12                                      OEI-05-98-00391
Steps beyond certifications

          In discussions with States about compliance with their spousal notification activities,
          respondents in four States described actions they have initiated since receiving approval of
          their certifications. One State is currently implementing a more formal notification
          process than the one for which it was certified. The old process relied on counselors and
          physicians to send spouse and partner names to the notification assistance staff, while the
          new process gives this staff more authority to initiate notification discussions with
          providers. The new process also puts more responsibility on counselors and physicians to
          elicit names or to initiate the elicitation/notification process through the State or local
          notification office.

          One State, which already required providers to elicit names in post-test interviews,
          established an active surveillance program. Nurses hired by the State visit providers who
          have sent in names of new positives. They discuss spouse and partner name elicitation as
          well as appropriate patient care and available services with physicians. Providers
          document notification discussions in their case notes, and nurses encourage physicians to
          discuss notification with patients on an ongoing basis. The program is being expanded
          with nurses providing ongoing follow-up with physicians.

          State public health staff in another State not only notify spouses and partners of potential
          exposure, but also offer to perform an HIV test for notified spouses and partners in their
          residence. This facilitates the elicitation of a second round of partners from an original
          index case. State notification staff have been very successful at eliciting names from the
          field cases they post-test counsel, increasing the number of potentially impacted
          individuals who can be notified.

          Another State is currently piloting a counselor training program and data collection
          system. Using several of its larger counties as test sites, the State is training HIV
          counselors and local notification staff. This improves participants’ ability to perform
          effective elicitation and notification as well as increasing their knowledge about HIV
          treatment and available services.

          The State’s AIDS office, in conjunction with the sexually transmitted disease control
          program’s training center, provides the training to local public health departments. In
          addition to running a training program, the State helps localities to develop goals and
          objectives based on State expectations. After staff at publicly funded sites are trained,
          private providers and counselors may access the free training as well. Once providers,
          counselors and notification staff in the pilot counties have been trained, the program will
          be expanded to the rest of the State.




Ryan White CARE Act: Spousal Notification          13                                      OEI-05-98-00391
States are responding to common barriers3
Legislative and administrative issues

          State laws limit who may be informed of an individual’s HIV status and how such
          notification can occur. Several States have patient confidentiality laws which restrict the
          ability of providers or others with information about infected individuals to inform
          partners of potential exposure to HIV. Even when notification is not restricted for
          spouses, States require that confidentiality be upheld for the index client. Other States’
          administrative rules or policies disallow partner notification without patient consent.

          Despite rules that limit notification without patient consent, the majority of sampled States
          do allow providers to notify known spouses of their potential HIV exposure. Eight States
          in our sample provide freedom from liability for providers who notify spouses of persons
          with HIV that they may have been exposed. The majority of these States allow
          notification of all partners; only two States grant freedom from liability for spousal
          notifications only. The rules surrounding such notifications vary among States, but
          providers are generally required to discuss notification with the patient and attempt to
          convince the individual to participate in the process before taking action to notify a
          spouse. Some States limit notification without patient consent to cases in which the
          provider knows the spouse’s identity.

          One way that States have tried to address the dual concerns of patient confidentiality and
          public health protection is to involve newly diagnosed individuals in the notification
          process. Some States that allow spousal notification without patient consent require
          counselors and providers to first try to gain patient consent before proceeding. If a tested
          individual still refuses to cooperate, providers in at least one State must inform the person
          that they will notify. The patient’s wishes regarding whether the provider or State public
          health staff will conduct the notification must also be followed. In another State, patient
          consent is necessary for the physician to notify a spouse, but consent is not required for
          the physician to provide the spouse’s name to the public health department.

Fitting notification into State structure

          States’ partner elicitation and notification programs are often shaped by States’ HIV
          prevalence and the structure of their State and local governments. In one State with high
          HIV prevalence, HIV prevention staff decided that the most effective strategy was to
          place notification activities within the context of ongoing service provision. Rather than
          develop a parallel infrastructure, the State developed an elicitation and notification
          program structured around existing service providers and testing sites. State staff
          indicated that they wanted notification to fit into a larger system of care. They wanted


          3
           Also see Table 2: “Barriers to Spousal Notification and State Solutions” in Appendix C.

Ryan White CARE Act: Spousal Notification                14                                          OEI-05-98-00391
          people to see notification as a service rather than a burden. In addition, with such a large
          number of HIV-positive individuals, public health staff determined that the cost of a
          program not tied to existing structures would have been prohibitive.

          Several sampled States have large areas with low HIV prevalence. Some of these States
          have decided that it is not economical for disease intervention staff to be stationed in every
          public testing site throughout the State. In two States, higher prevalence areas are staffed
          by State-funded staff, who are called in when needed to counsel individuals in other areas.
          Counselors at HIV test sites are also trained to elicit spouse and partner names. These
          counselors, as well as private physicians, are able to counsel individuals about the value of
          notifying partners.

          In several States, the counties have a fair amount of autonomy regarding the
          administration of their health and social services. This county orientation can impede
          State attempts to use one program structure that runs identically in every locality. One
          State’s notification program was developed as a framework within which each county can
          develop program details that fit the locality. To accommodate the county independence,
          the State allows each county to design its own notification program, but offers training to
          local HIV counselors and notification staff. Training includes information on what
          elicitation should entail as well as how to conduct notification and what notifiers should
          know about HIV treatment and available services.

Physicians and elicitation

          While many people seek HIV testing from public health clinics, CDC estimates that over
          80 percent of HIV tests are conducted in the private sector - by private providers using
          private laboratories. With a large percentage of HIV tests conducted by private providers
          such as physicians, barriers to physician participation in HIV spouse and partner
          notification can have a large impact on the success of a state notification program.

          Physicians may fail to elicit partner names from their HIV-positive patients for several
          reasons. Physicians vary in their ability and motivation to ask patients about their
          partners; many private physicians do not have the time or inclination to elicit names.
          Many physicians test only a few patients a year and are not practiced in HIV counseling
          and name elicitation.

          Respondents indicated that physicians may not see a role for themselves in HIV partner
          notification in part because they are used to the sexually transmitted disease (STD)
          notification model. Public health officers conducting STD elicitation and notification do
          not rely heavily on participation by private physicians. There is no established working
          relationship between the two groups, and physicians may not understand that their role is
          different with regard to HIV notification than it is with STDs.




Ryan White CARE Act: Spousal Notification          15                                      OEI-05-98-00391
          Several States in our sample encourage physician participation by following up with
          providers who test individuals for HIV. Two States ask providers to return forms
          indicating their elicitation efforts. Another State employs nurses who conduct follow-up
          work with physicians reporting HIV cases.

          Most States offer HIV counseling training to both private and public counseling and
          testing staff, and many make completion of a training program mandatory for anyone
          providing HIV counseling and testing. Although this may not ensure participation, it
          encourages it by increasing providers’ notification-related knowledge and skill base.

Counselors and elicitation

          Many HIV counselors are hesitant to push patients to engage in partner elicitation, as they
          do not want to alienate the patients. Many counselors are primarily concerned that an
          individual diagnosed with HIV seek needed services. They may not want to broach topics
          which may impact the patient’s willingness to return for services. In addition, some
          providers may not entirely understand the partner notification process. They can not pass
          on correct information about confidentiality, voluntary notification and other issues if they
          are not clear about what is required or allowed in their State.

          Many of our respondents at the State and local level indicated that the keys to successful
          partner elicitation are training and a “corporate culture” in which partner notification is
          valued. Counselors, physicians and those managing test facilities must recognize the
          importance of partner notification and understand the central role elicitation plays in that
          process. Public health staff in one State indicated that variance in testing sites’ success at
          convincing individuals to supply partner names was based in part on the motivation
          provided by site managers. They suggested that while all counselors received the same
          State-sponsored trainings, some managers stressed elicitation more than others and
          created an organization-wide sense that elicitation is important and achievable.

          Respondents from another State noted that counselors’ skills, as well as their relationships
          with the communities they serve, are key to successful notification efforts. A skilled
          counselor who establishes a rapport with a client and clearly explains the benefits of
          notification can greatly improve the affected individual’s willingness to reveal behaviors
          and names to an individual the client has just met.

Notifiers

          All 11 States appear to do a good job with the actual notification of partners and spouses.
          Each State we interviewed has motivated, well trained notification staff. They have few
          problems locating and notifying the individuals on whom they receive information. Many
          States rely on HIV notification staff who have previously worked in sexually transmitted
          disease (STD) units. These individuals transfer their knowledge and many of their
          protocols from the STD field to HIV notification.


Ryan White CARE Act: Spousal Notification           16                                      OEI-05-98-00391
Patients

       HIV spouse and partner notification can usually only proceed with the patient’s consent
       and cooperation. Even an accommodating individual may not be able or willing to discuss
       partners when he is digesting the news of his HIV status. In addition, patients may lack
       information about partners from longer time periods. The tested individual may not have
       good information about an ex-spouse or partner he or she has not seen in years. Other
       patients may refuse to identify spouses due to domestic violence concerns.

       A number of States have addressed patient cooperation issues by clearly identifying
       notification as a voluntary process. Several States make efforts to market spouse and
       partner notification as a service rather than an imposition. Most States require post-test
       counseling to include a discussion of the benefits of notification, a description of the
       process and an explanation of available services and participation options.



Several States are undertaking promising notification efforts
       While all sampled States have taken action on the activities to which they certified, several
       States have taken actions which appear particularly useful or successful. In particular,
       several States have made efforts regarding provider and counselor training, data utilization
       and notification which balance informing partners and maintaining confidentiality for index
       cases.

Training

       Respondents in several States indicated that training is a key to successful elicitation and
       notification efforts. While all State notification programs require their staff to be trained,
       some States take the additional step of requiring all HIV counselors involved in elicitation
       and notification to undergo State sponsored training in this area. One State which
       requires training for all HIV counselors indicates that this allows the State partner
       notification program to ensure that all counselors learn why notification is beneficial, how
       the process works and how to perform their part of the process.

       Another State ensures participation by private providers through its program of active
       surveillance. Public health staff visit providers who report cases of HIV. They discuss
       notification and other HIV related issues. During these meetings providers are
       encouraged to participate in notification activities. Active surveillance visits can serve a
       dual purpose, training private providers to participate in spouse and partner notification
       and improving relationships between public health staff and private medical providers.
       Working together, the two parties can better understand the issues each one faces and help
       one another with the elicitation and notification process.




    Ryan White CARE Act: Spousal Notification    17                                      OEI-05-98-00391
Utilizing data

       Of the five States that currently collect information on partner notification activities, two
       States stand out in terms of the data they collect and the way they use it. These States
       collect a large amount of information about their notification efforts, including the number
       of index cases interviewed, the number of partners elicited and the results of partner
       notification efforts. This information is aggregate data intended to assess trends rather
       than track individual cases. The data helps partner notification staff monitor their success
       and determine areas in need of improvement.

       These States take the additional step of monitoring the results of notification efforts in
       terms of whether notified partners agree to have an HIV test, whether partners have been
       tested in the past and the results of previous and new tests. The data collected is
       aggregated to help State notification programs assess whether a broad approach to partner
       notification is effective in identifying new cases of HIV. A high percentage of notified
       partners identified as “never previously tested” or “previous negative test, new positive
       test” would suggest that notification efforts are successfully locating previously
       unidentified cases of HIV. If many notified partners test negative for HIV, this could
       suggest that the public health department may want to further target its HIV identification
       efforts.

       One of the two States that collects a lot of notification data also gathers information on
       the success of elicitation efforts. Elicitation is primarily performed by counselors at HIV
       testing sites, and some sites receive State grants for their testing efforts. The State
       monitors the success of counselors at each site in eliciting partner names from persons
       newly diagnosed with HIV. Each site that receives State funding is required to maintain a
       1.0 partner index, meaning that on average, each site must elicit at least one partner name
       from each interviewed patient. Collecting this information allows the State partner
       notification program to assess which sites are successful at partner elicitation. The State
       program can help less successful sites perform better by offering or mandating retraining
       sessions for counselors and suggesting that lagging sites emulate practices utilized by the
       more successful sites.




    Ryan White CARE Act: Spousal Notification   18                                      OEI-05-98-00391
Balancing public health and confidentiality concerns

        While some States use their HIV name reporting system to initiate spouse and partner
        notification efforts, partner notification can be conducted without linking it to a State
        surveillance program. In one sampled State, the public health department conducts a
        strong HIV spouse and partner notification program not connected to surveillance efforts.
        This State appears to have success notifying spouses and partners of their possible
        exposure to HIV by developed a program that balances the public health need to notify
        partners of possible exposure and the concern that confidentiality is assured for index
        cases. Although the State employs name reporting of HIV, the partner notification
        program is administered separately from the name reporting program. The separation
        allows notification staff to assure index clients that any information they provide about
        partners can not be linked back to them. Partner names and locating information are
        separated from patient information by testing site staff and given to the State health
        department staff responsible for notification. The notification field staff never learn the
        names of the individuals who provided the partner names, so they are not able to pass
        those names along even if they wanted to.



Data collection is limited and uneven
        Although public health notification staff have a sense of their success at elicitation and
        notification, States often do not collect data in this area. None of the sampled States
        collects information on whether elicited partners are spouses or ex-spouses of index
        patients. Demographic information linking contacts to the index cases who name them is
        not collected in many States. One reason data on a partner’s relationship to an index case
        is not collected is that this information could jeopardize confidentiality for the index case.

        One sampled State collects information on how many notified individuals are currently
        married, but their confidential notification system does not allow them to link partners and
        index cases. Partner information is collected at the HIV test site and transferred to the
        partner notification field staff without any information about the index case. If an
        individual is recorded as the spouse of the index case who named him, the index case’s
        identity can be readily discerned.

        Five of the 11 sampled States collect data on partner notification.4 Although each State
        collects somewhat different information, most of these States monitor the number of
        referred cases which result in a notification discussion, the number which result in
        spouse/partner elicitation, total contacts elicited and average contact index. Two States
        also collect information on the disposition of the notified case, including whether the


        4
          For information on what types of data States collect, see Table 3: “Data Collection in the 11 Sampled
States” in Appendix C.


     Ryan White CARE Act: Spousal Notification          19                                           OEI-05-98-00391
   partner or spouse had been previously tested and whether notification led them to get
   tested. The six other States in our sample currently do not collect data on spouse and
   partner notification as part of their programmatic efforts. Three of these six States are
   currently developing or piloting data systems. In at least one of the States which does not
   currently collect data at the statewide level, some counties do collect local information on
   notification activities.




Ryan White CARE Act: Spousal Notification   20                                     OEI-05-98-00391
                           RECOMMENDATIONS

       States have been conducting spouse and partner HIV notification as part of PCRS and
       other counseling programs for many years; some programs were established in the mid
       1980s. The planned and ongoing efforts States described in their 1997 certifications to
       CDC stemmed from States’ larger public health mission to protect both HIV-infected
       persons and their partners. The certified activities were actions the States planned on
       implementing, and we found that the States in our sample have taken action on their
       certified activities.

       This does not mean that spousal and partner notification has achieved its goal of ensuring
       that vulnerable people are always made aware of their possible exposure to HIV. Based
       on our findings, additional efforts need to be undertaken to ensure maximum notification
       while ensuring confidentiality.

       As States have primary responsibility for public health issues and private physicians have
       primary responsibility for testing and initiating the notification process, we make the
       following recommendations to CDC:



Continue to facilitate understanding of notification efforts
through publicity, education and training
       The goals of partner notification are prevention of HIV transmission and improvement of
       HIV-infected persons’ access to care. For partner notification to work, it requires
       participation by all parties - counselors, physicians, patients. This is most likely to occur
       when participants are educated about the process and benefits of partner notification. The
       benefits for providers, counselors, HIV-positive individuals and their partners should be
       stressed.

       The CDC currently engages in public education efforts on a number of HIV-related issues.
       To increase knowledge on all sides, we recommend that CDC augment its current efforts
       by facilitating targeted education campaigns and provider training opportunities.

Establish and continue efforts to publicize notification goals, efforts and benefits

       Misconceptions about spouse and partner notification are often due to lack of information.
       Providing information on notification and other elements of PCRS can increase awareness
       about the intent and benefits of informing spouses and partners about their HIV risk.
       Increased knowledge is key to clearing up the misconceptions, fears and mistrust that
       hamper participation by providers and patients.


    Ryan White CARE Act: Spousal Notification   21                                      OEI-05-98-00391
       Information about notification efforts and processes should be tailored to specific
       audiences. Specifically, physicians and other providers should be educated about their role
       in eliciting partner names and notifying affected persons. Providers need information
       about what spouse and partner notification entails, how it occurs in the provider’s State,
       what its benefits are and the ways in which providers can participate.

       Educational efforts should also be aimed at organizations which represent and advocate
       for persons affected by HIV and AIDS. As these organizations communicate with the
       HIV/AIDS community and with subgroups within the larger affected population,
       increasing knowledge at the organizational level can improve individuals’ understanding of
       notification efforts and willingness to participate in the process.

       For information on spouse and partner notification to be heard and accepted by the
       population at large, it must come from individuals who command respect by a given
       population. The message’s acceptance will hinge on the speaker’s legitimacy with the
       listeners. In addition, efforts to publicize this information must be targeted, the message
       clear. A message that is simple, easy to comprehend and explained by a trusted speaker
       has the best chance of convincing individuals to participate in spouse and partner
       notification for HIV.

       In order to publicize the process and benefits of spouse and partner notification, we
       recommend that CDC establish targeted public affairs efforts. Spouse and partner
       notification should be addressed at senior levels in the department, and information about
       State efforts should be conveyed to interested and affected parties in a manner that
       increases the issue’s acceptability. Programs should complement CDC and other efforts
       currently underway.

       The CDC currently funds State efforts to increase individuals’ knowledge of their HIV
       status. Much of the funds go to health departments to support the development of new
       and innovative early identification strategies to reach high risk populations and create
       linkages with care. Special emphasis is placed on projects that target minority
       populations, including women and adolescents. Funded activities may include coalition
       building, product development, outreach activities, and evaluation of effective
       interventions.

       The funds are also used to promote risk reduction interventions to help those uninfected
       to stay that way, and to encourage those infected to practice safe behaviors to prevent the
       spread to others. The Secretary's Emergency Fund for HIV/AIDS funds such projects.

Facilitate local cooperation and collaboration

       Respondents at the national, State and local levels indicated that cooperation between
       State health departments, private groups and individuals is necessary for a successful
       notification program. Cooperative efforts require good working relationships.


    Ryan White CARE Act: Spousal Notification   22                                      OEI-05-98-00391
      Unfortunately, several respondents indicated that private and public health professionals in
      many States do not have strong relationships. Efforts to strengthen these relationships and
      improve knowledge can greatly improve outcomes for elicitation and notification efforts.

      We recommend that CDC facilitate local level collaboration between State and local
      public health and private providers through State medical societies, nurse practitioner
      groups and other provider groups. The CDC can encourage State and local public health
      agencies to facilitate this process by continuing to offer guidance and training to public
      health departments. Private providers should be encouraged to participate in trainings and
      other information sharing efforts. This is especially important as at least 80 percent of
      HIV tests are conducted in the private sector, yet these providers are often not linked to
      the State or local notification systems. Trainings, technical assistance and other written
      and oral guidance can help public health departments and private providers understand the
      process of spouse and partner notification, their roles in the process and the benefits of
      spouse and partner notification. Such efforts can also encourage public health and private
      providers to work together to improve their relationships in ways which smooth the
      process of notification.



Share good practices, replicable efforts
      While each State has unique issues which stem from governmental structure, program
      needs, affected population and State laws, some public health practices can be successfully
      utilized in multiple locales with only small variations. We recommend that CDC facilitate
      the sharing of information about successful State notification practices, including training,
      data collection and other efforts which enhance spouse and partner notification outcomes.
      The CDC should sponsor multi-State meetings on notification issues and efforts, and
      encourage the spread of promising practices. As this is an area in which CDC has
      experience, current conferences and meetings can be utilized for information sharing
      purposes.




   Ryan White CARE Act: Spousal Notification   23                                      OEI-05-98-00391
Encourage the establishment of data collection systems
     Data can be a useful part of a State’s spouse and partner notification program.
     Information collected on elicitation and notification efforts provide a snapshot of what
     efforts are working and which areas may need more attention. Data can encourage HIV
     counselors, private providers and public health staff who are successful at eliciting and
     notifying spouses and partners. It can also be used to provide benchmarks against which
     struggling providers and programs can measure themselves.

     There may be reasons why a successful notification program may elicit and notify few
     partners. Some newly identified HIV cases may elicit few contacts because the individual
     may have had a limited number of partners. Similarly, notification efforts are affected by
     the quality of elicited information, which is impacted by the time period between an
     individual’s last contact with a partner and the date they are asked for information.
     Memory is fallible, and people move, change names and die.

     The fallibility of data aside, data collection can help recognize successful efforts,
     encourage providers, counselors and others involved with notification, and help identify
     areas for improvement in elicitation and notification.

     We recommend that CDC encourage the development and use of data collection systems
     for spouse and partner elicitation and notification. The agency should facilitate the
     development of pilot and full-scale data collection programs by informing States of key
     data elements and collection procedures, by identifying successful State data collection
     efforts and by facilitating information sharing between States on notification data
     collection issues.

     Although some States do conduct their notification programs in conjunction with their
     HIV surveillance efforts, data collection does not require the collection and storage of
     partner names or identifying information. Most States which collect elicitation and
     notification data aggregate their information in order to get a sense of trends and
     successes. Analysis of this data does not call for personal information on index cases or
     partners, as indicated by the work of one State which completely separates its HIV
     surveillance data from its elicitation and notification information.



Comments on implementation costs
     The OIG recognizes that our recommendations have costs to States and the Federal
     government. The publicity and trainings we recommend require State and local partner
     notification staff to be hired and trained and private providers to be trained and included in
     public program efforts. Successful public awareness programs will increase costs
     associated both with locating, counseling and interviewing HIV-infected persons and their


  Ryan White CARE Act: Spousal Notification   24                                       OEI-05-98-00391
   partners and with program administration. Successful campaigns will encourage more
   providers to refer patients to participate in partner notification efforts. Additionally,
   instituting data collection programs could significantly increase costs to local, State and
   Federal governments.

   We are uncertain of the cost of fully implementing the recommendations we have made.
   Few cost estimates exist on partner notification. In 1997, CDC estimated that fully
   implementing partner notification services using existing notification guidelines would
   require an additional national outlay of at least $20-30 million. This amount does not
   include the cost of establishing State data collection systems or conducting targeted public
   awareness campaigns. Additionally, CDC notes that resources to perform a
   comprehensive PCRS program are inadequate to meet current needs. The CDC estimates
   that the cost of implementing OIG’s above recommendations would require an outlay
   which is two to three times current resources.

   The OIG recognizes the substantial costs involved in the development and use of data
   collection systems and the implementation of public awareness campaigns. Our
   recommendations are contingent on the availability of funding for such efforts.




Ryan White CARE Act: Spousal Notification   25                                       OEI-05-98-00391
                             AGENCY COMMENTS

We would like to thank the Centers for Disease Control and Prevention and the Health Resources
and Services Administration for commenting on the draft of this report.

The Centers for Disease Control and Prevention suggested some additions and a change to the
first recommendation. Based on their comments, some changes and clarifications were made to
this report. In particular, at their suggestion we have attached their guidance to State public
health officials regarding certification of compliance with the spousal notification requirement.
These guidelines provide examples of principles and practices that constitute a “good faith effort”
for certification. The full text of their comments is attached.

The Health Resources and Services Administration concurred with our recommendations and had
no additional comments.




     Ryan White CARE Act: Spousal Notification   26                                    OEI-05-98-00391
                                                  APPENDIX A

           Centers for Disease Control and Prevention 

                 Comments on the Draft Report





Ryan White CARE Act: Spousal Notification   27            OEI-05-98-00391
                                                  APPENDIX A

           Centers for Disease Control and Prevention 

                 Comments on the Draft Report





Ryan White CARE Act: Spousal Notification   28            OEI-05-98-00391
                                                                                APPENDIX B

   CDC Guidance to State Public Health Officials Regarding

    Certifications of Compliance with Public Law 104-146

  Centers for Disease Control and Prevention (CDC) and Health Resources and Services
                                Administration (HRSA)

Examples of Principles and Practices Regarding HIV Spousal Notification that Constitute
                                  a Good Faith Effort

SUMMARY: On May 20, 1996, the Ryan White CARE Reauthorization Act was signed into law
(P.L. 104-146). Section 8(a) requires that States take “administrative or legislative action to
require that a good faith effort be made to notify a spouse of a known HIV-infected patient that
such spouse may have been exposed to the human immunodeficiency virus and should seek
testing.” Under this section, States that fail to take administrative or legislative action will be
ineligible to receive grant funds under Part B of the Ryan White CARE Act administered by
HRSA.

Currently, CDC requires all health department recipients of HIV prevention funding to “establish
standards and implement procedures for partner notification consistent with State/local needs,
priorities, and resource availability.”

States must certify to CDC that they have taken the administrative or legislative actions necessary
to require a good faith effort to ensure that spouses of known HIV-infected individuals are
notified of their possible exposure to HIV and referred for testing.

All identifying information regarding HIV-infected patients and spouses must be kept confidential.
No personally identifying information shall be disclosed unless required by State law or political
subdivision, or unless the individual provides written, voluntary informed consent. Anonymous
HIV testing does not preclude effective partner or spousal notification. Unless prohibited by
State law or regulation, reasonable opportunities to receive HIV-antibody counseling and testing
services anonymously should continue to be offered. Anonymous testing services may encourage
some persons at risk of HIV, who might otherwise be reluctant to be tested, to seek testing.

The following are examples of public health principles and practices that constitute a “good faith”
spousal notification effort by States. States should review these examples, but are not limited to
them in considering which policies, systems, or actions will be appropriate for their jurisdictions.




     Ryan White CARE Act: Spousal Notification   29                                     OEI-05-98-00391
                                                                                    APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

1.	      Individuals reported to the State on or after April 1, 1997, as diagnosed with AIDS (or
         HIV infection in States requiring HIV-infection reporting by law or regulation), if not
         already determined by the reporting health care provider, each such individual shall be a)
         asked if they have, or have had, a spouse (defined by this law as “any individual who is the
         marriage partner of an HIV-infected patient, or who has been the marriage partner of that
         patient at any time within the 10-year period prior to diagnosis of HIV infection”), and b)
         informed that he or she should notify their spouse, or former spouse(s), of the potential
         exposure to HIV.

2.	      Reasonable efforts must be made to determine if each HIV-infected individual intends to
         notify his or her spouse of their possible exposure to HIV or agrees to have a qualified
         health care provider notify them. In situations where the HIV-infected individual reports
         that he or she intends to notify the spouse, culturally competent counseling and
         educational services on the following issues should be available--how to make the
         notification, how to preserve confidentiality of both the individual and the spouse, how
         HIV infection and transmission can be prevented, and how the spouse can access testing,
         other prevention services, and treatment. If the HIV-infected individual is unable or
         unwilling to notify his or her spouse, culturally competent services should be available
         from the provider or the health department to do so. Unless covered by existing law,
         policy, or regulation, States should develop policies that address situations involving HIV-
         infected individuals who do not plan to notify their spouses and who refuse health
         department assistance. In developing these laws, policies, or regulations, States should
         consider guidance contained in Guide to Public Health Practice: HIV Partner
         Notification Strategies (Association of State and Territorial Health Officials, et. al., 1988).
         Notification is not necessary in situations where, in the judgement of public health
         officials, there has been no sexual exposure of a spouse to a known HIV-infected
         individual during the relevant time frame.

3.	      Reasonable procedures to ensure that notified spouses receive referrals for HIV testing,
         other prevention services, and treatment should be implemented.

4.	      Health departments that document spousal notification policies and practices of public and
         private health care providers reporting AIDS and HIV that meet State requirements or
         establish agreements with them for this purpose need not directly contact every HIV-
         infected individual reported by such providers for purposes of spousal notification.

Table 1: State Spousal Notification Efforts - Actions Described in Certifications . . . . . . . . . . . 32




      Ryan White CARE Act: Spousal Notification    30                                        OEI-05-98-00391
                                                                                              APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

Table 2: Barriers to Spousal Notification and State Solutions . . . . . . . . . . . . . . . . . . . . . . . . . 35



Table 3: Data Collection in the 11 Sampled States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38





      Ryan White CARE Act: Spousal Notification          31                                             OEI-05-98-00391
                                                                                          APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

      Table 1: State Spousal Notification Efforts - Actions Described in Certifications5

 Action Description                              Action Type         State/States
 ALLOW NOTIFICATION                              Legislative         AL AZ CT DE GA HI ID IL IN IA
 This includes: freedom from liability                               KS KY LA ME MD MI MS MO
 for notification and active                                         NH NY OH RI SC TN UT VA WI
 responsibility to make a good faith                                 WY
 effort to notify or facilitate
 notification.                                   Administrative      AL AK AZ AR CA CO DE DC FL
                                                                     IN MA MN MT NE NV NH NJ NM
                                                                     NY NC ND OK OR PA SD TX VT
                                                                     WA WV
 REQUIRE OR OFFER COUNSELING                     Legislative         AL FL MD MS NY VA
 ON NOTIFICATION
 Most, if not all, States appear to do
 this to some degree, but not all
 States codify this in law. Other
 States have policies regarding                  Administrative      AL AK AR CO CT DE DC GA HI
 notification counseling, but not all                                IL IN IA KS MA MI MN MO MT
 have noted these policies in their                                  NV NH NJ NM OH OK OR SD TN
 certifications.                                                     TX UT VT WA WV WI

 OUTLINE PROVIDER AND PUBLIC                     Legislative         AL AK CT ID MD MI MS NV NH
 HEALTH STAFF PARTICIPATION                                          NC SC WY
 Some States put an affirmative duty
 on the public health department,
 private physicians or the person                Administrative      AZ CO DE DC FL HI IN IA KS KY
 performing post-test counseling to                                  LA ME MA MN MT NV NH NJ
 carry out notification.                                             NM NC ND OH OK SD TX UT VT
                                                                     VA WY WI




        5
         This table is based on information provided to the CDC by States. Some State certifications contained
attachments which were not available to OIG during our analysis. Any information contained in such an
attachment may be missing from the information provided in this table.


     Ryan White CARE Act: Spousal Notification         32                                          OEI-05-98-00391
                                                                                              APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

Table 1: State Spousal Notification Efforts - Actions Described in Certifications, continued

 Action Description                               Action Type           State/States
 REPORT HIV CASES FOR PUBLIC                      Legislative           AK MS MO NY6
 HEALTH PARTNER NOTIFICATION
 FOLLOW UP                                        Administrative        CO7 CT IA MN NH OK SC SD
                                                                        WV8 WI
 REQUIRE VERIFICATION OF A                        Legislative           OK
 NOTIFICATION PERFORMED BY AN
 INDEX CASE                                       Administrative        AL CO MN TN WV WI

 ENSURE CONFIDENTIALITY                           Legislative           CA CT NY VA
                                                  Administrative        CO DE DC ID LA MA MT NJ NM
                                                                        NC OH OK SD TN TX WY
 UTILIZE CDC GUIDELINES,                          Administrative        AL AK AR ID NH
 FORMS
 REVISE NOTIFICATION LAWS,                        Legislative           MD
 POLICIES, GUIDELINES TO
 ADDRESS SPOUSAL                                  Administrative        AK AZ CA9 CO DE FL IA KS KY
 REQUIREMENTS                                                           NE LA MA MI MO MT NV NH
                                                                        NM NY ND OR PA RI SC TX UT
                                                                        WA WV WI WY




         6
          This is part of the new law under implementation in New York.
         7
          Verification is performed if the HIV-positive individual agrees to participate in notification and wants to
notify their spouse/partner on their own.
         8
         Follow-up occurs for persons tested in the private sector. Persons tested in the public sector
automatically receive notification counseling.
         9
         The State encourages local programs to change the language in their guidelines, policies, etc. to address
spousal notification issues.


      Ryan White CARE Act: Spousal Notification          33                                               OEI-05-98-00391
                                                                                           APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

Table 1: State Spousal Notification Efforts - Actions Described in Certifications, continued

 Action Description                              Action Type          State/States
 DISCUSS SPOUSES AND PARTNERS                    Administrative       AL AK AR CO CT DE DC FL HI
 These State certifications specifically                              IL IN IA KS KY LA ME MA MI
 indicate that HIV counseling                                         MN MS MO MT NE NV NH NJ
 includes discussion of both                                          NM ND OH OK OR SD TN TX VA
 individuals’ partners and spouses                                    WA WV WI
 and notification issues generally.10
 AMEND CONTRACTS AND                             Administrative       AL AK AZ CA CO CT DC FL HI
 MEMORANDAS OF                                                        ID IL IN KS LA MA MO MT NE
 UNDERSTANDING (MOUS)                                                 NV NH NM ND OH OR PA TX
                                                                      UT WV WI
 PUBLICIZE RULES, LAWS,                          Administrative       AL AK AZ AR CA CO CT DE DC
 POLICIES                                                             FL HI IL IN KS KY LA ME MD
                                                                      MI MN MS MT NE NV NH NM
                                                                      NY ND OH OR PA TX UT WV WI


 REVISE TRAINING AND TRAINING                    Administrative       AK AZ CA IN KY MA NV NM NY
 MATERIALS                                                            RI TX WA




        10
          Although State programs generally require or encourage this in their counseling guidelines, not all
States mentioned it in their certifications.


     Ryan White CARE Act: Spousal Notification          34                                           OEI-05-98-00391
                                                                                             APPENDIX C

Spouse and Partner Notification Activities: State Level Data

                  Table 2: Barriers to Spousal Notification and State Solutions

Issue                     Description                              State Solutions
Legislative and           State laws (including patient            Address both patient confidentiality concerns
Administrative            confidentiality laws) limit who may      and public health protection by involving
                          be informed of a person’s HIV status     newly diagnosed individuals in the notification
Barriers                  and how such notification can occur.     process.

                          Most States require that the identity    Require counselors and providers to first try to
                          of the index case not be revealed        gain patient consent before proceeding with
                          through HIV notification.                notification without patient consent.

                          Some States’ administrative rules or     If a tested individual refuses to cooperate, the
                          policies disallow partner notification   provider must inform the person that they will
                          without patient consent.                 notify. The patient’s wishes regarding
                                                                   whether the provider or State public health
                                                                   staff will conduct the notification must also be
                                                                   followed.

Fitting                   States’ partner elicitation and          States with high HIV prevalence: Structure the
Notification into         notification programs are often          notification program around existing service
                          shaped by States’ HIV prevalence and     providers and testing sites. With many
State Structure           the structure of their State and local   HIV-positive individuals, the cost of a
                          governments.                             program not tied to existing structures may
                                                                   otherwise be prohibitive.
                          Designing a program without taking
                          local issues, strengths and              States with low HIV prevalence: Augment
                          weaknesses into account will hinder      efforts by State-funded staff with private HIV
                          program success.                         test site counselors trained to elicit names.

                                                                   County autonomy: Develop a framework
                                                                   notification program within which each
                                                                   county can develop program details to fit the
                                                                   locality. Each county designs its notification
                                                                   program; the State can offer training to local
                                                                   HIV counselors and notification staff.




   Ryan White CARE Act: Spousal Notification             35                                           OEI-05-98-00391
                                                                                             APPENDIX C

Spouse and Partner Notification Activities: State Level Data

          Table 2: Barriers to Spousal Notification and State Solutions, continued

Issue                     Description                               State Solutions
Physicians and            The Hippocratic oath orders               Encourage physician participation by
Elicitation               physicians to “tell no secret” obtained   following up with providers who test
                          through the therapeutic relationship.     individuals for HIV. Ask providers to return
                                                                    forms indicating their elicitation efforts.
                          Physicians vary in their ability and      State-hired nurses who conduct follow-up
                          motivation to ask patients about their    work with physicians reporting HIV cases.
                          partners; many private physicians do
                          not have the time or inclination to       Offer HIV counseling training to private and
                          elicit names.                             public counseling and testing staff. Make
                                                                    completion of a training program mandatory
                          Many physicians test only a few           for anyone providing HIV counseling and
                          patients a year and are not practiced     testing. Encourage participation in the
                          in HIV counseling and name                notification process by increasing providers’
                          elicitation.                              notification-related knowledge and skill base.

Counselors and            Many HIV counselors are hesitant to       Stress counselor training and a “corporate
Elicitation               push patients to elicit partners, as      culture” in which partner notification is
                          they do not want to alienate the          understood and valued.
                          patient.
                                                                    Counselors, physicians and those managing
                          Many counselors do not want to            test facilities must recognize the importance of
                          broach topics which may impact the        partner notification and understand the central
                          patient’s willingness to return for       role elicitation plays in that process.
                          services.
                                                                    Counselors’ skills and the relationships they
                          Some providers may not entirely           establish with the community are key to
                          understand the partner notification       successful notification efforts. A skilled
                          process.                                  counselor establishes a rapport with a client
                                                                    and clearly explains the benefits of
                                                                    notification. This can greatly improve the
                                                                    affected individual’s willingness to reveal
                                                                    behaviors and names to an individual the
                                                                    client has just met.




   Ryan White CARE Act: Spousal Notification             36                                            OEI-05-98-00391
                                                                                            APPENDIX C

Spouse and Partner Notification Activities: State Level Data

           Table 2: Barriers to Spousal Notification and State Solutions, continued

Issue                     Description                             State Solutions
Patients                  HIV notification can usually only       Clearly identify notification as a voluntary
                          proceed with the client’s consent and   process. Market spouse and partner
                          cooperation. A client may not be able   notification as a service rather than an
                          or willing to discuss partners while    imposition. Require post-test counseling to
                          digesting HIV test results.             include a discussion of the benefits of
                                                                  notification, a description of the process and
                          Patients may lack information about     an explanation of available services and
                          partners from longer time periods or    participation options.
                          may refuse to identify spouses due to
                          domestic violence concerns.




   Ryan White CARE Act: Spousal Notification            37                                           OEI-05-98-00391
                                                                                              APPENDIX C

 Spouse and Partner Notification Activities: State Level Data

                            Table 3: Data Collection in the 11 Sampled States

 Type of Data Collected                                                                        States
 Number of newly identified index cases eligible for post-test interview                       FL MO NJ NC
 Number of index cases which result in a notification discussion                               FL MO NJ NY
                                                                                               NC
 Number of index cases which result in spouse or partner elicitation*                          FL NJ NC
 Number of contact notifications that were spousal notifications                               NJ
 Number of index cases interviewed within specific time frames                                 FL NC
 Average contact index (average number of contacts elicited per interview)                     MO NJ NC
 Total number of contacts elicited from all interviews                                         FL MO NJ NC
 Number of elicited partners who were notified within a certain time period                    FL NJ NC
 Number of elicited partners who were not contacted or notified                                FL NJ NC
 Disposition of HIV test administered to a notified spouse or partner                          FL NJ

Notes:

*This category differs from the previous one in that Missouri and New York monitor whether a notification

discussion occurred, not whether contacts were elicited. It can be assumed that if contacts were elicited, a

discussion occurred. Thus, some States listed as tracking information in this category are also listed as tracking

information in the “Number of cases which result in a notification discussion” category.


Florida - Cases are tracked by “closed” cases only. Cases which do not result in an interview are sorted by reason

for lack of interview - “refused interview”, “unable to locate” and “other”. The State also notes how many contacts

are “new” partners. Of the new partners, the interview activity report records how many have had a previous

negative HIV test, how many have not been tested and how many refused to be tested.


Missouri - A “new” case is one which has not been previously reported to the State. All newly reported HIV cases

are interviewed, unless a physician specifically indicates that the patient should not be contacted. The interview

consists of spouse and partner elicitation and referral to HIV care services. 


North Carolina - Monthly Epidemiologic Case Reports also track the number of cases which do not result in an

elicitation interview and the number of cases with no contacts named. All the information is tracked for HIV cases

and AIDS cases. The data is also broken out by gender of the index case. 





     Ryan White CARE Act: Spousal Notification           38                                             OEI-05-98-00391
